TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                            Significant Tax Issues
                       Are Often Not Addressed During
                  Correspondence Audits of Sole Proprietors



                                        February 24, 2010

                              Reference Number: 2010-30-024




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   February 24, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Significant Tax Issues Are Often Not
                                  Addressed During Correspondence Audits of Sole Proprietors
                                  (Audit # 200830054)

 This report presents the results of our review to determine whether correspondence examinations
 effectively address the compliance risks of sole proprietors. The review was conducted as part of
 our Fiscal Year 2009 Annual Audit Plan under the major management challenge of Tax
 Compliance Initiatives.

 Impact on the Taxpayer
 Estimates by the Internal Revenue Service (IRS) show that $68 billion of the $345 billion tax
 gap 1 in 2001 was due to sole proprietors who underreported their income. We evaluated closed
 correspondence audits of individual returns reporting sole proprietor operations and found
 significant tax issues were not addressed during these audits. Sole proprietors who underreport
 their income can create unfair burden on honest taxpayers and diminish the public’s respect for
 the tax system.

 Synopsis
 To its credit, the IRS has successfully expanded audit coverage, using the correspondence
 process as one of several ways to help remedy the noncompliance that contributes to the
 estimated $345 billion annual tax gap. However, the absence of required minimum checks for
 unreported income and unfiled returns in correspondence audits involving sole proprietors may

 1
     The difference between taxes that are legally owed and taxes that are paid on time.
                          Significant Tax Issues Are Often Not Addressed
                         During Correspondence Audits of Sole Proprietors



be undermining the effectiveness of a process designed to verify that the correct amount of tax is
reported.
We evaluated a statistically valid sample of 298 closed correspondence audits of individual
returns reporting sole proprietor operations that were closed by tax examiners in the IRS Campus
Compliance Services operations during Fiscal Year 2007. While examiners adequately
documented audit case files to support audit findings, we found 129 audits where sole proprietors
may have avoided tax and interest assessments totaling more than $1.7 million after significant
potential income misstatements were not addressed during the audits.
We believe many of the problems identified in the audits can be attributed to two procedures that
are not required by correspondence examiners, but are required by field examiners, when
auditing an individual return reporting sole proprietor business income. Unlike procedures for
audits conducted in the field, the procedures for correspondence audits do not require examiners
to complete minimum checks for unfiled returns (employment tax and information returns) and
to probe for unreported income.
Given the compliance risks associated with sole proprietors and the potential revenue at stake,
the advantages associated with requiring examiners to include checks for unfiled returns and
probe for unreported income during correspondence audits would seem to outweigh the
disadvantages. The advantages include identifying unreported income that might otherwise go
undetected, which could increase the amount of revenue from audits. Also, the procedures could
be performed without increasing burden on compliant taxpayers and provide a more sound and
objective basis for transferring audits to the field. The disadvantages involve the time and costs
spent training examiners to use and document the new procedures in audit case files. There
would also be costs involved with establishing controls to provide assurance that examiners are
properly following the procedures once implemented. However, we believe these costs would
not be significant because they could be mitigated to some degree by expanding on existing work
practices and processes.

Recommendations
We recommended that the Director, Campus Compliance Services, Small Business/
Self-Employed Division, require examiners to conduct and document, in audit case files, checks
to identify unfiled employment tax and information returns and the results of automated
preliminary cash transactions analyses, including consideration given to transferring the audit to
the field if issues are identified. In addition, we recommended that the Director, Campus
Compliance Services, expand controls that provide assurance that examiners are properly
performing checks for unfiled employment tax and information returns and conducting
preliminary cash transaction analyses so corrective actions can be identified and taken, if needed.



                                                                                                  2
                         Significant Tax Issues Are Often Not Addressed
                        During Correspondence Audits of Sole Proprietors




Response
IRS management partially agreed with our three recommendations by responding with
alternative corrective actions. IRS management stated they would work with the Small
Business/Self-Employed Division’s Research Division to develop inventory selection filters to
identify sole proprietors that did not file required employment tax or information returns and
those with indicators of unreported income. To the extent possible, these cases would be
excluded from correspondence examination inventory and made available to field examination.
IRS management agreed to provide additional guidance to campus correspondence examiners on
documenting case files and transferring cases to the field, when warranted. IRS management
also agreed to ensure appropriate actions were taken on sole proprietor audits during quality
reviews of open and closed cases. Feedback from the quality reviews would be provided to the
respective Campus Director and Campus Examination Operations Manager and would also be
considered during updates to inventory selection filters.
Management did not agree with our outcome measure because they had concerns that our
calculations were based on preliminary cash transaction analyses and assumed all potential
underreporting was actual underreporting. They also had concerns that our computation did not
include implementation costs, such as training and lost opportunity costs. Management’s
complete response to the draft report is included as Appendix V.

Office of Audit Comment
We agree the IRS’ alternative corrective actions may help reduce the number of significant tax
issues that are not addressed during correspondence audits of sole proprietors. However, the
absence of a specific commitment from the IRS requiring that examiners conduct a preliminary
cash transaction analysis during sole proprietor examinations is surprising to us given the high
number of correspondence examinations closed in recent years, including those involving a sole
proprietor. In Fiscal Year 2008, IRS records show that it closed 125,045 examinations involving
a sole proprietor using correspondence techniques. This is roughly a 7 percent increase over the
117,064 sole proprietor examinations using correspondence techniques that were closed in Fiscal
Year 2004.
As outlined in this report, a preliminary cash transaction analysis can identify considerable
differences between expenditures and income. This difference raises very serious questions
about whether expenses may be overstated on the return and/or whether there may be additional
sources of income that should have been reported. Moreover, the IRS readily admitted in its
response that sole proprietor underreporting is a serious compliance issue and that this type of
analysis is necessary for an effective audit of the issue.



                                                                                                   3
                         Significant Tax Issues Are Often Not Addressed
                        During Correspondence Audits of Sole Proprietors



Regarding the disagreement over the outcome measure, we maintain that the potential
$82.6 million of increased revenue is a reasonable estimate, and we included qualifiers to our
outcome measure to clarify that our numbers assume all estimated taxes and interest would be
owed based upon audits of the taxpayers’ books and records. We also clarified that additional
costs related to implementation, training, and lost opportunities are not factored into the
computation.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                 4
                                    Significant Tax Issues Are Often Not Addressed
                                   During Correspondence Audits of Sole Proprietors




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          The Recommended Additional Taxes From Correspondence
          Audits Are Substantial .................................................................................Page 2
          Additional Steps Are Needed to Ensure the Risks Posed by Sole
          Proprietors Are Mitigated in Correspondence Audits ..................................Page 3
                    Recommendations 1 and 2: ................................................Page 6

                    Recommendation 3: .................................................................... Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measure ................................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 15
       Significant Tax Issues Are Often Not Addressed
      During Correspondence Audits of Sole Proprietors




               Abbreviations

FY       Fiscal Year
IRS      Internal Revenue Service
                          Significant Tax Issues Are Often Not Addressed
                         During Correspondence Audits of Sole Proprietors




                                      Background

Each year, the Internal Revenue Service (IRS) identifies billions of dollars in additional income
taxes owed through audits of individual income tax returns. Such audits, which occur in a
variety of forms, are critical to the IRS’ enforcement strategy for ensuring individuals are paying
the amount of taxes they owe.
Audits of individual income tax returns range from reviewing tax returns and resolving
questionable items by corresponding with taxpayers through the mail to a detailed face-to-face
examination of a taxpayer’s financial records at his or her place of business. In contrast to the
more labor intensive face-to-face examination, the correspondence audit process is less intrusive,
more automated, and conducted by examiners who are trained to deal with and focus on less
complex tax issues. Importantly, correspondence audits also enable the IRS to reach more
taxpayers at a lower cost.
Typically, a correspondence audit begins with the IRS mailing a computer generated letter to a
taxpayer that outlines the examination process, identifies one or more items on the tax return
being questioned, and requests supporting information to resolve the questionable items. Once
returned, examiners review the information to see whether it resolves the questions. If the
questions can be sufficiently answered by the information provided, the audit is generally closed
without any tax changes; if not, the taxpayer is sent a letter requesting more information or
indicating a recommended tax change. The taxpayer at this point can agree with the examiner,
provide the examiner with clarifying information, or appeal the decision to the IRS’ Office of
Appeals. In instances where the taxpayer does not respond to IRS letters, the examiner’s
recommended tax changes are assessed by default and the taxpayer will generally have to
petition the court system to contest the assessment.
This review was performed in the IRS Small Business/Self-Employed Division Headquarters
Office in New Carrollton, Maryland, during the period July 2008 through August 2009. Except
for auditing IRS databases to validate the accuracy and reliability of the information, we
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                            Page 1
                            Significant Tax Issues Are Often Not Addressed
                           During Correspondence Audits of Sole Proprietors




                                    Results of Review

To its credit, the IRS has successfully expanded audit coverage using the correspondence
process. However, despite the billions of dollars in assessments this process generates,
additional steps are needed to ensure the risks posed by sole proprietors are mitigated in
correspondence audits.

The Recommended Additional Taxes From Correspondence Audits
Are Substantial
In Fiscal Years (FY) 2004 through 2008, IRS statistics show it conducted more than 5.1 million
correspondence examinations and, in the process, recommended approximately $35 billion in
additional taxes. This represents about 60 percent of the estimated $58 billion in total
recommended additional taxes from all individual examinations during these years. It also
indicates that for each tax return examined, a correspondence examination generated about
$6,800 in recommended additional taxes. Considering the seemingly high return from the
correspondence examination process, it is not too surprising the number of examinations
conducted through correspondence is increasing. As shown in Figure 1, the number of
individual tax returns examined through correspondence increased from 828,262 in FY 2004 to
more than 1.1 million in FY 2008 and accounted for the vast majority of individual tax returns
that were examined in each of these years.
                    Figure 1: Audit Results for FYs 2004 Through 2008

                                                 2004          2005         2006          2007          2008
 Total Number of Audits                          997,028     1,199,035     1,283,950     1,384,563     1,391,581

 Number of Correspondence Audits                 828,262     1,007,891     1,055,979     1,135,556     1,138,695

 Percentage of Correspondence Audits                 83%           84%           82%           82%              82%

 Recommended Additional Taxes From                   $5.6         $12.9         $12.2         $15.0        $11.9
 All Audits (in billions)
 Recommended Additional Taxes From                   $3.6          $7.5          $7.8          $9.6             $6.8
 All Correspondence Audits (in billions)
 Percentage of Recommended Additional                64%           58%           64%           64%              57%
 Taxes From Correspondence Audits
Source: Our analysis of FYs 2004–2008 data from the Audit Information Management System, which is an IRS
computer system used to control tax returns during examination, input assessments and adjustments to taxpayer
accounts, and provide management reports.

                                                                                                        Page 2
                             Significant Tax Issues Are Often Not Addressed
                            During Correspondence Audits of Sole Proprietors



Besides the seemingly high return from correspondence audits, there are other important reasons
correspondence audits will likely continue to have a large compliance role in the coming years.
One of the most important is the tax gap. 2 Estimated to be costing the Federal Government
$345 billion annually, the tax gap is considered by many to be one of the most serious problems
facing tax administration today, and correspondence audits are one process the IRS uses to help
remedy the noncompliance that contributes to it.
Another reason the number of correspondence examinations will likely continue to increase is
the focus the IRS has on reversing many of the downward trends in compliance activities that
were noted in previous years. 3 We noted in a recent report 4 that only 617,765 individual returns,
or 1 of every 202 returns, were examined in FY 2000. Since then, the number of tax returns
examined has continuously increased and 1,391,581 individual returns, or 1 of every 99 returns,
were examined in FY 2008.

Additional Steps Are Needed to Ensure the Risks Posed by Sole
Proprietors Are Mitigated in Correspondence Audits
According to estimates from the IRS’ 2001 National Research Program, most sole proprietors
(57 percent) misreported their income and collectively accounted for $68 billion of the
$345 billion tax gap in 2001. 5 In contrast to wage earners, for whom taxes are collected
primarily through the withholding requirements, the same taxes owed by sole proprietors are
collected mainly through a voluntary assessment process. Businesses have no requirement to
withhold taxes from the compensation paid to sole proprietors, nor do they have any reporting
obligations to the IRS if the payment to a sole proprietor totals less than $600 in any given year.
Instead, sole proprietors bear full responsibility for estimating, setting aside, reporting, and
paying the income, Social Security, and Medicare taxes they determine are due from their
earnings. Those sole proprietors who take advantage of this process to underreport their income
can create unfair burden on honest taxpayers and diminish the public’s respect for the tax system.
We evaluated 298 closed correspondence audits of individual returns reporting sole proprietor
operations that were closed by tax examiners in the IRS Campus Compliance Services operations
and found the absence of required minimum checks for unreported income and unfiled returns
may be undermining the effectiveness of a process designed to verify that sole proprietors report
the correct amount of tax. While examiners adequately documented audit case files to support

2
  The difference between taxes that are legally owed and taxes that are paid on time.
3
  Opportunities Exist to Improve the Correspondence Examination Process for High-Income Nonfilers (Reference
Number 2008-30-156, dated September 16, 2008).
4
  Trends in Compliance Activities Through Fiscal Year 2008 (Reference Number 2009-30-082, dated
June 10, 2009).
5
  Tax Gap: A Strategy for Reducing the Gap Should Include Options for Addressing Sole Proprietor
Noncompliance (GAO-07-1014, dated July 2007).
                                                                                                       Page 3
                          Significant Tax Issues Are Often Not Addressed
                         During Correspondence Audits of Sole Proprietors



audit findings, our statistically valid sample of 298 correspondence audits identified 129 where
sole proprietors may have avoided tax and interest assessments totaling $1.7 million after
significant tax issues were not addressed during the audits. When projected to our population of
2,798 sole proprietors whose examinations were closed in FY 2007, our results indicate that
1,211 sole proprietors may have collectively avoided $16.5 million in taxes and interest.
Specifically, we found the following tax issues:
   1. Business expenditures and other items deducted on the return that, when combined with
      estimated personal living expenses, exceeded the income on the return by more than
      $10,000 in 31 percent of the audits (93 of 298 audits). In 15 of these 93 instances, the
      expenses exceeded the income on the return by more than $50,000. The considerable
      differences noted between expenditures and income raise very serious questions about
      whether expenses on the return are overstated or if there were additional sources of
      income that should have been reported on the returns.
   2. Deductions for paying wages and/or compensation to others, but no records with the IRS
      showing employment tax or information returns were filed in 12 percent of the audits
      (36 of 298 audits). The absence of information reporting in these cases creates
      opportunities for the recipients to underreport the income on their tax returns and avoid
      detection by the IRS. Those who take advantage of such opportunities to underreport
      their income can create unfair burden on honest taxpayers and diminish the public’s
      respect for the tax system.
   3. Refunds from earned income credits that sole proprietors may not have been entitled to if
      the significant differences we noted between the expenditures and income were, in fact,
      caused by overstating expenses and/or underreporting income (114 of 298 audits).
   4. Tax return preparers were used in preparing the vast majority of the tax returns for which
      we identified significant tax issues that were not addressed during the audits (94 of 129
      audits). Many in tax administration consider tax return preparers critical to facilitating
      compliance with the tax law. However, the large number of questionable returns that
      involved paid preparers raises concerns about the competence, and possibly the integrity,
      of some in the tax preparer community. These questionable returns also point to the need
      to enhance tax return preparer compliance and ethical standards so the IRS can better
      detect and sanction incompetent or unethical tax return preparers.

Examiners need to be better prepared to conduct sole proprietor audits through
correspondence
We believe many of the problems identified in the audits can be attributed to two procedures that
are not required by correspondence examiners, but are required by field examiners, when



                                                                                          Page 4
                              Significant Tax Issues Are Often Not Addressed
                             During Correspondence Audits of Sole Proprietors



auditing an individual return reporting sole proprietor business income. During our reviews, we
obtained information from the IRS’ Integrated Data Retrieval System 6 to assess whether the sole
proprietors in our sample met their obligations to file individual, employment tax, and
information returns. In addition, we accessed the IRS intranet 7 site and obtained estimates of
personal living expenses published by the Bureau of Labor Statistics that we used in a
preliminary cash transaction analysis to identify potential unreported income.
Unlike procedures for audits conducted in the field, the procedures for correspondence audits do
not require examiners to complete minimum checks to detect unfiled employment tax and
information returns or unreported income. However, correspondence audit procedures do
require the examiners and their managers to consider transferring the audit to the field if there are
deductions that cannot be supported by unfiled returns or substantial amounts of income that may
not have been reported. We found no evidence in the case files we reviewed that consideration
was given to transferring any of the audits to the field.
Given the compliance risks associated with sole proprietors and the potential revenue at stake,
the advantages associated with requiring examiners to expand checks for unfiled returns and
probe for unreported income during correspondence audits would seem to outweigh the
disadvantages. In terms of advantages, the additional audit procedures could be:
    •   Used to potentially increase revenue from sole proprietor audits by identifying unreported
        income that might otherwise go undetected. Using the recommended taxes and interest
        that sole proprietors in our sample may have avoided, we estimate that sole proprietors’
        correspondence audits for 6,055 taxpayers over a 5-year period may potentially increase
        tax and interest revenue by $82.6 million 8
    •   Performed without increasing burden on compliant taxpayers. The IRS has implemented
        online automated information systems that examiners can access before initiating
        taxpayer contact in verifying that required returns were filed and completing a
        preliminary cash transaction analysis. Consequently, the data from the systems reduce or
        eliminate the need to request the information from taxpayers during audits.
    •   Used to provide a more sound and objective basis for transferring audits to the field.
        Currently, procedures instruct correspondence examiners to transfer audits to the field
        when there are unfiled returns or substantial amounts of unreported income. However,
        this procedure is largely left to the judgment of individuals and their managers. As a
        result, needed transfers are not always made as evidenced by our case reviews and a


6
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
7
  The IRS intranet is a computer network that can be accessed only by authorized persons.
8
  This figure assumes that all estimated taxes and interest would be owed based upon audits of the taxpayers’ books
and records and that conditions such as tax rates and IRS audit coverage remain the same.
                                                                                                            Page 5
                           Significant Tax Issues Are Often Not Addressed
                          During Correspondence Audits of Sole Proprietors



        1999 Government Accountability Office report. 9 In 1999, the Government
        Accountability Office reported finding that less than an estimated 1 percent of the returns
        that should have been transferred from correspondence audit to the field were transferred.
The primary disadvantages involve the time, and hence the costs, spent training examiners to use
and document the new procedures in audit case files. There would also be costs involved with
establishing controls to provide assurance that examiners are properly following the procedures
once implemented. However, we believe these costs would not be significant because they could
be mitigated to some degree by expanding on existing work practices and processes. For
example, IRS correspondence audit procedures already require examiners to check IRS
automated information systems for IRS activity on the taxpayers’ accounts.
Controls are also in place to help confirm examiners are following procedures and to initiate
needed corrective actions. Examination managers are responsible for ensuring correspondence
audits meet quality standards. To meet this responsibility, the IRS’ Internal Revenue Manual
recommends they use a variety of processes, including in-process case reviews, closed case
reviews, time on case reviews, and on-the-job reviews. These reviews, among other things,
assist the manager in determining whether examiners followed procedures, auditing standards
were met, and to identify areas for improvement.

Recommendations
We recommend that the Director, Campus Compliance Services, should:
Recommendation 1: Require examiners to conduct and document, in audit case files, checks
to identify unfiled employment tax and information returns, including consideration given to
transferring the audit to the field if issues are identified.
        Management’s Response: IRS management partially agreed with this
        recommendation by responding with alternative corrective actions. The Director,
        Campus Reporting Compliance, will work with the Small Business/Self-Employed
        Division’s Research Division to determine how best to identify sole proprietors that did
        not file the required employment tax or information returns in an effort to exclude these
        cases from correspondence examination inventory through inventory selection filters.
        IRS management will pilot the filters to test their effectiveness and make these cases
        available to field exam.
Recommendation 2: Require examiners to conduct and document, in audit case files, the
results of automated preliminary cash transaction analyses, including consideration given to
transferring the audit to the field if issues are identified.


9
 IRS Audits: Weaknesses in Selecting and Conducting Correspondence Audits (GAO/GGD-99-48, dated
March 1999).
                                                                                                  Page 6
                          Significant Tax Issues Are Often Not Addressed
                         During Correspondence Audits of Sole Proprietors



       Management’s Response: IRS management partially agreed with the
       recommendation by responding with alternative corrective actions. The Director,
       Campus Compliance Services, will coordinate with the Director, Exam Planning and
       Delivery, to make sole proprietor returns with indicators of unreported income available
       to field examination. Supplementary guidance will be provided to campus examiners on
       documenting case files and taking the appropriate actions to transfer cases to the field,
       when warranted.
       Office of Audit Comment: We agree the IRS’ alternative corrective actions may help
       reduce the number of significant tax issues that are not addressed during correspondence
       audits of sole proprietors. However, the absence of a specific commitment from the IRS
       requiring that examiners conduct a preliminary cash transaction analysis during sole
       proprietor examinations is surprising to us given the high number of correspondence
       examinations closed in recent years, including those involving a sole proprietor. In
       FY 2008, IRS records show that it closed 125,045 examinations involving a sole
       proprietor using correspondence techniques. This is roughly a 7 percent increase over the
       117,064 sole proprietor examinations using correspondence techniques that were closed
       in FY 2004.
       As outlined in this report, a preliminary cash transaction analysis can identify
       considerable differences between expenditures and income. This difference raises very
       serious questions about whether expenses may be overstated on the return and/or whether
       there may be additional sources of income that should have been reported. Moreover, the
       IRS readily admitted in its response that sole proprietor underreporting is a serious
       compliance issue and that this type of analysis is necessary for an effective audit of the
       issue.
Recommendation 3: Expand controls that provide assurance that examiners are properly
performing checks for unfiled employment tax and information returns and conducting
preliminary cash transaction analyses so corrective actions can be identified and taken, if needed.
       Management’s Response: IRS management partially agreed with the
       recommendation by responding with alternative corrective actions. The Director,
       Campus Compliance Services, will work with the Small Business/Self-Employed
       Division’s Research Division to refine inventory selection filters to reduce the number of
       cases with these issues from correspondence examination inventory. During quality
       reviews of correspondence examinations, management will identify inventory where
       these issues may be present to ensure appropriate actions have been taken. Feedback
       from the case reviews will be provided to the respective Campus Director and Campus
       Examination Operations Manager and the information may be used to refine inventory
       selection filters.



                                                                                            Page 7
                  Significant Tax Issues Are Often Not Addressed
                 During Correspondence Audits of Sole Proprietors



Office of Audit Comment: Although IRS management partially agreed with our three
recommendations by responding with alternative corrective actions, they did not agree
with our outcome measure because they had concerns that our calculations were based on
preliminary cash transaction analyses and assumed all potential underreporting was actual
underreporting. They also had concerns that our computation did not include
implementation costs, such as training and lost opportunity costs. However, we maintain
that the potential $82.6 million of increased revenue is a reasonable estimate and included
qualifiers to our outcome measure to clarify that our numbers assume all estimated taxes
and interest would be owed based upon audits of the taxpayers’ books and records. We
also clarified that additional costs related to implementation, training, and lost
opportunities are not factored into the computation.




                                                                                    Page 8
                              Significant Tax Issues Are Often Not Addressed
                             During Correspondence Audits of Sole Proprietors



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine whether correspondence examinations
effectively address the compliance risks of sole proprietors. To meet our objective, we relied
upon IRS internal management reports and databases. We did not establish the reliability of
these data because extensive data validation tests were outside the scope of this audit and would
have required a significant amount of time. To accomplish our objective, we:
I.      Evaluated the workload selection process to determine how cases are being selected for
        correspondence examinations including classification criteria and distribution of
        correspondence examination work nationwide.
II.     Determined whether correspondence audits are being effectively conducted.
       A. Identified the population of correspondence audits closed in FY 2007 on the Audit
          Information Management System 1 for taxpayers who filed a U.S. Individual Income
          Tax Return (Form 1040) with Profit or Loss From Business (Schedule C) with total
          gross receipts more than $100,000 and total positive income less than $200,000. The
          audits resulted in either a no change to the taxpayers’ liability or the taxpayer agreed to
          the examiner’s adjustments.
       B. Conducted limited data validation testing.
             1. Matched the universe of correspondence examination cases on the Audit
                Information Management System to the IRS Data Book. 2
             2. Selected a judgmental sample of 20 examinations on the Audit Information
                Management System and verified selected taxpayer information to the IRS’
                Integrated Data Retrieval System. 3
       C. Identified 2,798 cases (high dollar Schedule C with disposal codes 01, 02, and 03 4 )
          from the population of correspondence audits closed by tax examiners in the IRS

1
  A computer system used to control returns, input assessments and adjustments to the Master File, and provide
management reports. The Master File is the IRS database that stores various types of taxpayer account information.
2
  The Data Book is published annually by the IRS and contains statistical tables and organizational information on a
fiscal year basis.
3
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
4
  The IRS uses these two digit codes to indicate the disposition of an examination. The three codes cited indicate
that these examinations resulted in either a no change to the taxpayers’ liability or the taxpayer agreed to the
examiner’s adjustments.
                                                                                                            Page 9
                          Significant Tax Issues Are Often Not Addressed
                         During Correspondence Audits of Sole Proprietors



          Campus Compliance Services operations during FY 2007 and reviewed a statistical
          sample of 298 cases from that population. The precision level, as computed based on
          our sample analysis using a 95 percent confidence level and an error rate of
          43.29 percent, was ± 5.32 percent.
       D. Reviewed the 298 closed cases to evaluate if sole proprietors (Schedule C taxpayers)
          were properly examined through correspondence by:
           1. Determining whether all classified items were properly addressed during the
              examination.
           2. Determining whether all large, unusual, or questionable items were adequately
              addressed by completing a 3-year comparative analysis of return information and
              a cash transaction analysis for each return examined.
           3. Securing agreement to our case reviews from IRS management.
III.   Based on the results of our case analyses, calculated the number of sole proprietors who
       may have understated their tax liabilities and the amount of taxes and interest associated
       with these cases.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Campus Correspondence Examination’s
policies, procedures, and practices for selecting and examining including classification criteria
and distribution of correspondence examination work nationwide. We evaluated these controls
by reviewing source materials, interviewing management, reviewing correspondence
examination case files, and researching taxpayer accounts.




                                                                                           Page 10
                        Significant Tax Issues Are Often Not Addressed
                       During Correspondence Audits of Sole Proprietors



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Lisa Stoy, Audit Manager
Kristi Larson, Lead Auditor
Cynthia Dozier, Senior Auditor
Craig Pelletier, Senior Auditor
Donna Saranchak, Senior Auditor
Erlinda Foye, Auditor




                                                                                      Page 11
                        Significant Tax Issues Are Often Not Addressed
                       During Correspondence Audits of Sole Proprietors



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 12
                          Significant Tax Issues Are Often Not Addressed
                         During Correspondence Audits of Sole Proprietors



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $82.6 million in additional taxes and interest owed by
    6,055 taxpayers over 5 years (see page 3). Our calculation assumes that all estimated taxes
    and interest would be owed based upon audits of the taxpayers’ books and records and that
    conditions such as tax rates and IRS audit coverage remains the same. The figure does not
    take into consideration implementation costs, such as training and lost opportunity costs.

Methodology Used to Measure the Reported Benefit:
•   We reviewed a statistically valid sample of 298 taxpayers from a population of 2,798 sole
    proprietors with closed correspondence examinations in FY 2007.
•   We identified 129 sole proprietors that may have misstated their taxable income by
    overstating expenses and/or understating income.
•   Based on our sample error rate of 43.29 percent (129/298) and a confidence level of
    95 percent, we calculated the number of sole proprietors audited by the IRS who may have
    misstated their taxable incomes but avoided detection to be 1,211 sole proprietors [2,798 x
    43.29 percent], with a range of 1,062 to 1,360.
•   To estimate the potential amount of additional taxes and interest these 129 sole proprietors
    may owe, we recomputed the additional tax liabilities for each sole proprietor based on the
    potential amount by which they may have misstated their taxable income. Based on this
    analysis, we estimate that the 129 sole proprietors in our sample may owe $1,360,627.51 in
    additional taxes and $399,613.45 in interest.
•   To estimate the average amount due from our sample cases, we added the taxes and interest
    together [$1,360,627.51 + $399,613.45 = $1,760,240.96] and divided this figure by the
    298 sole proprietors in our sample [$1,760,240.96/298 = $5,906.85].
•   We then multiplied the number of sole proprietors in the total population by the average
    amount due from our sample cases to get the total amount of additional taxes and interest


                                                                                          Page 13
                          Significant Tax Issues Are Often Not Addressed
                         During Correspondence Audits of Sole Proprietors



    owed for these examination cases closed in TY 2007 [2,798 x $5,906.85 = approximately
    $16,527,366].
•   To estimate the number of sole proprietors who may have misstated their taxable income
    over 5 years if the IRS does not change its procedures, we multiplied the number of sole
    proprietors who may have misstated their taxable income that we estimated to be in our
    population by 5 to obtain the number of taxpayers who may misstate their taxable income
    over 5 years [1,211 x 5 = 6,055].
•   To estimate the amount of additional taxes and interest owed by the taxpayers that we
    estimate may misstate their taxable income over 5 years if the IRS does not change its
    procedures, we multiplied the total amount of additional taxes and interest we estimated is
    owed for the examination cases closed in TY 2007 by 5 to obtain the amount of taxes and
    interest that would be owed over 5 years [$16,527,366 x 5 = approximately $82,636,830].




                                                                                          Page 14
         Significant Tax Issues Are Often Not Addressed
        During Correspondence Audits of Sole Proprietors



                                                   Appendix V

Management’s Response to the Draft Report




                                                           Page 15
 Significant Tax Issues Are Often Not Addressed
During Correspondence Audits of Sole Proprietors




                                                   Page 16
 Significant Tax Issues Are Often Not Addressed
During Correspondence Audits of Sole Proprietors




                                                   Page 17
 Significant Tax Issues Are Often Not Addressed
During Correspondence Audits of Sole Proprietors




                                                   Page 18
